NO. 20-

(CAPITAL CASE)

IN THE
SUPREME COURT OF THE UNITED STATES

REINALDO DENNES,
Petitioner,
v.
LORIE DAVIS, Director,
Texas Department of Criminal Justice (Institutional Division),
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Fifth Circuit

CERTIFICATE OF WORD COUNT

I, Kenneth McGuire, certify that the foregoing Petition for a Writ of Certiorari complies with
the word limitations set forth in Rule 33.2(b), and is filed pursuant to Rule 39.3, as the Petition is 33
pages in length, and as Petitioner is requesting leave to proceed in forma pauperis.

KENNETH W. MCGUIRE*
McGuire Law Firm
P.O. Box 79535
Houston, Texas 77279
(713) 223-1558
kennethmcguire@att.net
*Counsel of Record

Counsel for Petitioner, Reinaldo Dennes

